         OFFICE OF INSPECTOR GENERAL

                                   Catalyst for Improving the Environment


Audit Report




         EPA Needs to Improve
         Change Controls for Integrated
         Financial Management System

         Report No. 2004-P-00026


         August 24, 2004
Report Contributors:                       James Rothwell
                                           Anita Mooney
                                           Neven Morcos




Abbreviations

CMS          Change Management System
CFO          Chief Financial Officer
EPA          Environmental Protection Agency
FAR          Federal Acquisition Regulation
FDW          Financial Data Warehouse
GAO          Government Accountability Office
IFMS         Integrated Financial Management System
NIST         National Institute of Standards and Technology
OARM         Office of Administration and Resources Management
OCFO         Office of the Chief Financial Officer
OIG          Office of Inspector General
OMB          Office of Management and Budget
RACF         Resource Access Control Facility
                             UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                          WASHINGTON, D.C. 20460

                                                                                          OFFICE OF
                                                                                      INSPECTOR GENERAL



                                        August 24, 2004

MEMORANDUM

SUBJECT:             EPA Needs to Improve Change Controls for Integrated Financial
                     Management System
                     Assignment No. 2003-000909
                     Audit Report No. 2004-P-00026


FROM:                Patricia H. Hill, Director /s/
                     Business Systems Audits (2421T)

TO:                  Charles E. Johnson, Chief Financial Officer
                     Office of the Chief Financial Officer (2710)

                     David O’Connor, Acting Assistant Administrator
                     Office of Administration and Resources Management (3101A)


This is our final report on the subject audit conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and the findings contained in this report do not necessarily
represent the final EPA position. Final determinations on matters in this report will be made by
EPA managers in accordance with established audit resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days of the date of this report. You should include a corrective actions
plan for agreed upon actions, including milestone dates. We have no objections to the further
release of this report to the public. For your convenience, this report will be available at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at
(202) 566-0894, or James Rothwell, Assignment Manager, at (202) 566-2570.
cc:   Lorna McAlister, OCFO
      Kristina Mainess OCFO
      Juanita Galbreath, OCFO
      Rich Lemley, OARM
      Sandy Womack, OARM
      Wes Carpenter, OARM
                    Executive Summary
Purpose
          We conducted this audit to evaluate the adequacy of Environmental Protection
          Agency (EPA) Office of the Chief Financial Officer (OCFO) policies, procedures,
          and practices for controlling financial application development and software
          changes to EPA’s Integrated Financial Management System (IFMS). IFMS is
          integral to the preparation of the Agency’s financial statements. We evaluated
          operational management and security controls used to govern software
          modifications for this system to address the following questions:

          •   Do security controls provide reasonable assurance that access to software
              libraries is limited to authorized individuals and, consequently, that software
              modifications are properly controlled?

          •   Do the operational controls provide reasonable assurance that system software
              modifications and processing features are properly authorized?

          •   Do the operational controls ensure all new and revised software is properly
              tested and approved before it is placed into production?

Results of Review
          We found a general breakdown of security controls that could undermine the
          integrity of IFMS software libraries and financial system data. Duties were not
          adequately segregated, individuals used an inappropriate ID or continued to have
          system access after no longer needing it, and contractor personnel were granted
          access to IFMS without a successful background security check. Numerous
          accountability and contractual issues contributed to this, including OCFO not
          having a system for identifying employee responsibilities related to IFMS
          security, and management not performing a risk assessment of IFMS’s general
          support system. As a result, there was a high risk that system programmers could
          make unauthorized or unapproved changes to system software and data used for
          EPA’s accounting and financial reporting.

          Also, OCFO is not managing the contract for IFMS software modifications in a
          manner that ensures the proper authorization, acceptance, and approval of all new
          and revised software. OCFO management is not properly using its Change
          Management System to manage change activities for IFMS and provide technical
          direction to contractor staff. Although we had previously identified contract
          management problems, OCFO continued to use contract practices that gave the
          appearance of an improper personal service relationship with the contractor. A
          personal services relationship was clearly demonstrated when OCFO Financial



                                            i
        Systems Staff orally instructed the contractor to bypass documented channels and
        correct erroneous transactions totaling over $222 million by entering negative
        debits and positive credits “directly” into IFMS.

        Further, OCFO management has not instituted a formal, structured change control
        process for IFMS to ensure software program modifications are properly
        authorized, tested, and approved. Such controls are needed to reduce the risk of
        unauthorized programs or modifications being implemented, and to provide for
        system security certification and accreditation. However, OCFO management did
        not implement formal change controls, as agreed to in a 1998 Office of Inspector
        General report. Inadequate change controls over IFMS software modifications
        places the Agency at risk that the availability, confidentiality, and integrity of
        EPA’s accounting and financial reporting functions could be compromised.

Recommendations
        We are making various recommendations to OCFO to improve IFMS controls. In
        particular, we recommend that OCFO perform a risk assessment of the Endevor
        system used to control IFMS development, testing, and maintenance, and develop
        a security plan for Endevor. We also recommend that OCFO remove access for
        all contractor personnel without a pending personnel security screening request or
        a final acceptable background check. Further, we recommend that OCFO
        establish a systematic process for identifying key responsibilities, and holding
        employees accountable. In addition, we recommend that the Acting Assistant
        Administrator for Administration and Resources Management finalize pertinent
        guidance and procedures.

Agency Response and OIG Comments
        The Chief Financial Officer concurred with our recommendations and generally
        outlined appropriate corrective actions to improve security and change controls
        over IFMS. The Acting Assistant Administrator for Administration and
        Resources Management did not concur with our recommendations concerning
        contractor background investigations, asserting that “suitability” background
        investigations of Federal contractors are not required. Management stated its
        existing, interim procedures were sufficient to guide offices that chose to initiate
        background investigations. However, current EPA policy and Federal guidance
        strongly recommend screening comparable to that for Federal staff, and we
        strongly urge such screening. The Federal government is operating in a high risk
        environment, and extra care needs to be taken to ensure non-Federal workers have
        acceptable backgrounds before trusting them with access to sensitive data and
        systems.




                                         ii
                                   Table of Contents
Executive Summary .................................................................................................                i



 Chapters

         1        Introduction .................................................................................................. 1

         2        Security Controls Inadequate to Protect
                  Integrity of IFMS Software Libraries ........................................................... 5

         3        Contract Practices Over IFMS Software Modifications
                  Need Improvement ..................................................................................... 13

         4        Change Control Process Does Not Ensure
                  Proper Authorization, Testing, and Approval .......................................... 17




 Appendices

         A        Applicable Criteria ....................................................................................... 23

         B        Office of the Chief Financial Officer Response to Draft Report .............. 27

         C        Office of Administration and Resources Management
                  Response to Draft Report .......................................................................... 31

         D        Distribution .................................................................................................. 39




                                                               iii
iv
                                 Chapter 1
                                 Introduction

Purpose
          We conducted this audit to evaluate the adequacy of Environmental Protection
          Agency (EPA) Office of the Chief Financial Officer (OCFO) policies, procedures,
          and practices for controlling financial application development and software
          changes to EPA’s Integrated Financial Management System (IFMS). We
          evaluated operational management and security controls used to govern software
          modifications for this system to address the following questions:

          •   Do security controls provide reasonable assurance that access to software
              libraries is limited to authorized individuals and, consequently, that software
              modifications are properly controlled?

          •   Do the operational controls provide reasonable assurance that system software
              modifications and processing features are properly authorized?

          •   Do the operational controls ensure all new and revised software is properly
              tested and approved before it is placed into production?

Background

          IFMS is a customized version of Federal Financial System software, which is
          maintained and modified through contracted services. The contract requires EPA
          to use its Change Management System to identify and prioritize changes to IFMS
          system software. EPA purchases vendor updates for IFMS through an annual
          licensing agreement. EPA controls the changes to IFMS by grouping them into a
          sub-release; to date, EPA has implemented 10 sub-releases to IFMS.

          The integrity of IFMS data is integral to EPA’s financial management operations
          because it is the central system and interfaces with numerous other administrative,
          financial, and mixed financial systems. IFMS supports such core financial
          management activities as general ledger, budget execution, funds control,
          accounts payable, disbursements, accounts receivable and collections, travel and
          project cost accounting, fixed assets, and standard reporting functions.




                                            1
Scope and Methodology
         We conducted this audit from May 2003 to March 2004 in accordance with
         Government Auditing Standards, issued by the Comptroller General of the United
         States. Our work was performed with Agency officials at EPA Headquarters in
         Washington, DC. In addition, we performed work with the Financial Data
         Warehouse system manager and the Delivery Order Project Officer for the facility
         support contract at Research Triangle Park, North Carolina. We also obtained and
         reviewed contract documents from the General Services Administration that
         pertained to the Inter-Agency Grant for maintaining and operating the Endevor
         system.

         To evaluate the IFMS software libraries’ security controls, we reviewed IFMS’s
         security plan, and evaluated personnel screening procedures for systems
         contractor staff. We also tested and observed Endevor operational security
         procedures for monitoring and moving software changes made in 2003. Further,
         we tested and observed Resource Access Control Facility (RACF) security used
         in 2003 for access to IFMS libraries.

         To determine whether IFMS operational controls provided reasonable assurance
         that software modifications were properly authorized, we reviewed: Federal
         regulations, Agency and OCFO policies, the IFMS Security Plan, and pertinent
         contract documents. Specifically, we evaluated contract administration for seven
         software development tasks during fiscal 2003, as well as the approval process
         used by EPA prior to placing these changes into production. We reviewed similar
         documents to determine whether IFMS operational controls ensure that new and
         revised software are properly tested and approved prior to being implemented.
         Specifically, we evaluated the testing and approvals for the seven system software
         modifications made and placed in production by EPA in fiscal 2003.

         Limited Review of Financial Data Warehouse Performed

         As part of the original scope of our review, we had planned to review the
         Financial Data Warehouse (FDW) system as well as IFMS. However, during our
         preliminary research phase, we found that management had not instituted a formal
         change control process over FDW, as specified in the Federal Information System
         Controls Audit Manual. We notified OCFO management of this weakness and,
         accordingly, did not pursue audit field work on FDW. In September 2003, the
         Comptroller took the first step toward developing a formal change control process
         by issuing a policy to establish an oversight structure for managing software
         changes to the FDW. We reviewed the policy and found that it does not contain
         sufficiently detailed procedures for the change control process being
         implemented. As such, we suggested that OCFO management expand upon the
         existing policy by developing and implementing a formal change control process
         with standardized procedures and techniques. We subsequently limited the scope




                                          2
          of our work to permit OCFO time to implement the new policy and develop new
          procedures.

          Prior Audit Coverage

          The Office of Inspector General (OIG) noted issues related to internal software
          changes in a prior report, Management of EPA’s Technical Support Contract for
          Core Financial Systems Needs Improvement, Report No. E1NMG6-15-0003-
          9100034, dated November 5, 1998. Among other things, the report noted that
          management needed to establish internal software change policies and procedures
          to provide management oversight and approval of core software development or
          enhancement projects, and discontinue direct supervision of contractor staff
          (i.e., personal services activities). Similar conditions noted in our current audit
          are discussed in Chapters 3 and 4.

Internal Controls

          Our assessment of IFMS’s software change control process and related security
          controls indicate EPA’s core financial system is at risk for fraud, waste, and
          mismanagement. In planning and performing our audit, we limited our work to
          addressing operational and security controls associated with IFMS software
          modifications. During the period of our review, OCFO reported an internal
          control weakness due to the lack of a system security certification process for
          contractor personnel. Nevertheless, EPA’s Administrator gave an unqualified
          statement of assurance in the Agency’s Fiscal 2003 Integrity Act Report, based on
          OCFO’s annual self-assessment of its internal management and financial control
          systems.

Compliance with Laws and Regulations
          We identified noncompliances with portions of the Federal Acquisition
          Regulation related to contract management administration processes. (See
          Chapter 3.)




                                           3
4
                               Chapter 2
        Security Controls Inadequate to Protect
          Integrity of IFMS Software Libraries
         We found a general breakdown of security controls that could undermine the
         integrity of IFMS software libraries and financial system data. Duties were not
         adequately segregated, individuals used an inappropriate ID or continued to
         have system access after no longer needing it, and contractor personnel were
         granted access to IFMS without a successful background security check.
         Despite many Federal and Agency policies, guidance, and procedures,
         numerous accountability and contractual issues contributed to poor management
         of the change control process and led to the general breakdown of security
         controls. This included OCFO not having a system for identifying employee
         responsibilities related to IFMS security, and management not performing a risk
         assessment of Endevor, the general support system used to control access to
         IFMS software libraries. As a result, there was a high risk that system
         programmers could make unauthorized changes to system software and data
         used for EPA’s accounting and financial reporting.

System Supports IFMS Change Control Process
         Endevor is an off-the-shelf general support system used to control the
         development, testing, and maintenance of IFMS libraries and software. EPA
         uses a contractor to administer Endevor but relies on EPA employees to perform
         associated Information Security Officer and RACF administration duties.
         Endevor provides controls over the movement of program code through the
         system life cycle management phases of IFMS. Endevor uses three basic
         “environments” to control libraries and software:

               Environment                                  Description

          Development             Contractor personnel use to develop software code and perform
                                  initial tests.

          Quality Assurance       EPA module experts subsequently use for formal testing, such as
                                  systems testing.

          Production              The software code is stored and executed from system software
                                  libraries.




         These environments are further divided into multiple sequential life cycle stages.
         The environments and stages provide approval controls to ensure the system
         software advances in an orderly fashion through the systems life cycle stages and
         maintain access controls within stages. Software is migrated by Endevor
         sequentially from development to production environments. The IFMS Security


                                          5
         Plan states that Endevor’s purpose is to ensure software code is approved by EPA
         personnel prior to moving the code, or revised code, into production. IFMS
         operations use Endevor to provide for data set and functional security by using
         RACF. A user is identified through a RACF-defined User-ID, and is
         authenticated through the password supplied with the User-ID at logon.

         Numerous Federal regulations, industry best practices, and Agency policies and
         procedures provide benchmarks for evaluating EPA practices in dealing with
         security controls over the IFMS software change control process. This includes
         criteria from the Office of Management and Budget (OMB), Government
         Accountability Office (GAO), and NIST. The applicable criteria are listed in the
         following table, while further details are provided in Appendix A.

          Applicable Criteria

           •    OMB Circular A-123, Management Accountability and Control
           •    OMB Circular A-130, Appendix III, Security of Federal Automated Information
           •    GAO Federal Information System Controls Audit Manual
           •    NIST SP 800-14, Generally Accepted Principles and Practices for Securing Information
                Technology Systems
           •    NIST SP 800-64, Security Considerations in the Information Development Life Cycle
           •    NIST SP 800-18, Guide for Developing Security Plans for Information Technology
                Systems
           •    EPA’s Information Security Manual
           •    OCFO Policy Announcement 98-08, Amendment 1, Procedures for On-line Access to
                EPA’s Integrated Financial Management System
           •    IFMS Security Plan
           •    EPA’s Application RACF Security Administrator’s Guide
           •    Implementation Report for IFMS 5.1, Release 1 Using Endevor V3.6




Improved Security Controls Needed

         Logical Access Controls Over IFMS Software Inadequate

         OCFO management had not established or instituted adequate logical access
         controls to protect the integrity of IFMS software libraries and data. We
         examined user access rights for 27 individuals, including 14 contractor personnel,
         who either: (1) possessed the ability to approve and move changes through
         Endevor, or (2) had access to Endevor through functionally-based RACF Groups.
         Specifically, we found the following:

               Functions Not Segregated. Sensitive change management functions had not
               been adequately segregated between contractor personnel to prevent any
               individual from controlling all critical stages of the process. We identified six
               EPA contractors who had the ability to both approve and move program code
               within each Endevor environment and from one environment to the next.
               Segregating sensitive duties would preclude the contractor from making
               unauthorized and perhaps untrackable changes.




                                                6
    Unneeded Access Remained. Five individuals no longer needing access to
    Endevor had not been removed from the RACF or RACF groups. This
    included a contractor who had not worked at EPA for several years. This
    Endevor contractor had a separate RACF User-ID and was assigned access
    rights through two of the five RACF groups. Further, management was not
    maintaining and using the RACF groups to control member access based on
    each group’s functional roles, as intended by the 1995 Implementation
    Report for IFMS 5.1. Instead, individual users were assigned RACF User-
    IDs and given direct access rights within the various Endevor environments.
    This dual approach circumvented role-based access rights meant to enforce
    separation of duties, and allowed these individuals to bypass internal
    controls for modifying software code.

    Sharing of User-IDs. Multiple contractor personnel routinely accessed
    Endevor environments using another individual’s User-ID. Specifically,
    OCFO is allowing EPA contractors to use the User ID of OCFO’s RACF
    Administrator to monitor the IFMS nightly cycle, which, subsequently, gives
    them access to IFMS production data. This presents an integrity risk because
    an “administrator” typically possesses advanced access rights.

    Multiple IDs Used. Some OCFO employees possessed multiple RACF
    User-IDs, although OCFO management had not justified and obtained a
    formal waiver from EPA’s National Technology Systems Division, as
    required by Agency procedures. Individuals possessing multiple IDs may
    loan out one or more of these IDs to other users, thus giving them
    inappropriate access rights and eliminating a verifiable audit trail.

Contractor Personnel Granted Access to IFMS Without Successful
Security Screening

OCFO granted contractor staff sensitive access rights to IFMS production
software and data even though OCFO had not requested or received assurance
through the personnel security screening process that these individuals did not
pose a significant risk to the integrity of the system. The contracts for Endevor
and IFMS require that contractor staff submit background information to OCFO
as a basis for initiating the security screening process. Of the at least
10 contractor staff assigned to the contracts, we found the following:

•   Only three had acceptable “suitability” screenings. Further, for one of those
    three, the Office of Personnel Management had returned the request for
    screening stating EPA needed to adjudicate it; the Office of Environmental
    Information performed the adjudication, but OCFO had not been notified of
    the results.

•   While the Office of Personnel Management had returned another two requests
    for screenings, OCFO had not revised and resubmitted them.



                                 7
         •   OCFO had never initiated requests for contractor security screening for the
             remaining five contractor staff, including one for the individual serving in the
             sensitive role as an Endevor System Manager.

         In addition, OCFO did not actively try to determine the status of requests that it
         had submitted for processing. Some of the requests had been pending a
         considerable length of time (sometimes more than a year), while OCFO
         continued to allow those contractors to perform duties that could have
         ultimately jeopardized the Agency’s ability to produce accurate, complete, and
         reliable financial information and reports.

         Endevor Logs Not Reviewed to Detect Problems or Assess Risk

         OCFO personnel did not review Endevor audit logs, which are needed to give
         management assurance that only authorized change control activity is being
         conducted by recognized users. Endevor can produce a variety of reports that
         identify the User-ID associated with each system action, as well as when the
         action was performed. Neither OCFO’s RACF Administrator nor the
         Information Security Officer requests these reports or review them periodically
         to detect problems or assess risk to the IFMS change control process.

Numerous Issues Contributed to Inadequate Management of
Change Control Process
         The primary factors contributing to the breakdown of security controls over
         OCFO’s change management process for IFMS included the following:

         •   Management never performed a risk assessment for Endevor nor created a
             security plan to (1) describe the controls in place or planned to meet security
             requirements, or (2) delineate responsibilities and expected behavior for
             individuals who access the system. Although Endevor supported multiple
             OCFO systems, management had not recognized its significance to the
             financial system infrastructure.

         •   The Office of Administration and Resources Management’s Security
             Management Division had not issued official policies and procedures to
             EPA’s regional and program offices for defining the roles, responsibilities,
             and office interactions to ensure security screenings for non-Federal
             personnel. The OCFO Delivery Order Project Officer expressed confusion
             about his role and responsibilities. In April 2004, the Security Management
             Division issued a memo with interim guidance for handling screenings in a
             consistent, structured, and timely manner, but the Division is still working
             on additional guidance as well as training.




                                           8
          •     The Statement of Work for the Endevor contract does not accurately reflect
                OCFO’s current policy for screening contractor personnel who access
                IFMS. The Statement only requires a National Agency Check, although
                Amendment 1 of OCFO Policy 98-08 now indicates contractors should
                undergo a National Agency Check with Inquiries and Credit prior to being
                granted access to IFMS.

          •     OCFO has not established a system that clearly identifies key responsibilities
                or roles related to IFMS security and Endevor contract administration, and
                holds employees accountable for successful performance. In many cases,
                position descriptions do not accurately reflect an employee’s current
                responsibilities or sufficiently detail significant duties related to Endevor
                contract management, information security oversight, or RACF
                administration. OCFO management acknowledged these concerns and, as a
                first step, is revising position descriptions for Financial Systems Staff.

          •     OCFO experienced considerable employee turnover because Financial
                Systems Staff employees either retired or were transferred to other divisions,
                and staff in key roles may not fully understand and execute assigned duties.

Security Weaknesses Threaten IFMS Data Integrity
          The security control weaknesses noted significantly impact management’s ability
          to place reliance on the integrity of data EPA uses for accounting and financial
          reporting purposes. In our opinion, the Agency faces the risk that unauthorized
          changes could be made to IFMS system software and data. The general
          breakdown of logical access controls could allow system programmers and
          analysts to surreptitiously modify, destroy, or change production system software
          and data. Unsafe practices are exacerbated by the facts that (1) OCFO is not
          using available audit logs to oversee change control activities, and (2) contractor
          staff are not receiving satisfactory security screenings before being granted
          sensitive access rights to IFMS software and data. These weaknesses could
          impede OCFO’s ability to produce reliable data for financial managing and
          Congressional reporting purposes, and also could result in a disruption of IFMS
          operations.

Recommendations
          We recommend that the Chief Financial Officer:

          2.1      Perform a risk assessment of the Endevor system and, subsequently,
                   develop a security plan for Endevor in accordance with NIST guidance,
                   such as NIST Special Publication 800-18.

          2.2      Update the Endevor Statement of Work to comply with current policies.




                                             9
         2.3    Remove access for all contractor personnel without a pending personnel
                security screening request or a final acceptable background check.

         2.4    Establish a systematic process that will (1) clearly identify key
                responsibilities of roles related to IFMS security and Endevor contract
                administration; (2) ensure employees are adequately trained to perform
                assigned duties; and (3) hold employees accountable for successful
                performance of their roles by revising position descriptions and
                performance agreements.

         We recommend the Acting Assistant Administrator for Administration and
         Resources Management:

         2.5    Finalize the existing Interim Procedures for Conducting Background
                Investigations in a formal Agency-level policy.

         2.6    Provide interim guidance on duties and responsibilities of coordinators for
                background investigations.

         2.7    Provide training for Agency Delivery Order Project Officers and
                background security check coordinators for requesting background
                investigations of non-Federal personnel.

Agency Comments and OIG Evaluation

         The Chief Financial Officer (CFO) and the Acting Assistant Administrator for
         OARM both provided responses to the security-related recommendations in our
         draft report. The CFO concurred on four recommendations and identified several
         actions to address reported weaknesses, such as updating the Endevor Statement
         of Work to comply with Agency policies. The Acting Assistant Administrator for
         OARM did not concur with the three recommendations concerning contractor
         background investigations.

         The CFO agreed to perform a risk assessment of the Endevor system and to
         incorporate the results into IFMS’s security plan. However, in our opinion, the
         best approach would be to create separate security plans for Endevor and IFMS.
         The CFO assumed operational responsibility for Endevor from EPA’s Working
         Capital Fund and, as such, we believe that Endevor is a general support system
         and should not be combined with the security plan for the IFMS application. If
         the CFO still wants to prepare one, overarching security plan for the IFMS and
         Endevor systems, then it should be based on separate risk assessments of Endevor
         and IFMS. Moreover, the level of system information included in the overarching
         security plan should be sufficient to adequately (1) describe the controls in place
         or planned to meet security requirements, and (2) delineate responsibilities and
         expected behavior for individuals who access the system.




                                         10
The CFO also agreed to establish a systematic process for securing IFMS, and
listed several documents and actions taken that help employees understand their
security responsibilities. However, OCFO needs to do more to ensure employees
are held accountable for successfully performing their security roles. Therefore,
we believe OCFO needs to (1) revise position descriptions for employees with
IFMS security or Endevor contract administration responsibilities, and (2) update
their performance standards to ensure accountability for these sensitive roles.
Because these actions address security issues, the CFO should enter specific dates
for these actions in the Agency’s ASSERT system as a Plan of Action and
Milestones.

The Acting Assistant Administrator for OARM did not agree to act on the report’s
recommendations, stating that background suitability screening of Federal
contractors is not required by Federal or Agency-wide policy. Management stated
that its interim procedures were sufficient to guide those program and regional
offices that initiated background investigations due to internal requirements, and
therefore, it did not need to finalize guidance or provide additional training to
project officers or background security check coordinators. We disagree with
management’s decision to take no further action to formalize and strengthen the
security screening process for contractor personnel. Both current EPA policy and
NIST guidance strongly recommend that contractors have a comparable
suitability screening to perform information technology work. Formalizing
Agency-wide procedures would bring needed structure and consistency to the
personnel screening process, and help clarify levels of risk and minimum
screening requirements for non-Federal workers.

The Federal government is operating in a high risk environment and
implementing wartime security operations, and we believe EPA and other
agencies need to do more to screen non-Federal workers. Extra care needs to be
taken to ensure non-Federal workers have acceptable, verifiable financial and
lawful backgrounds before trusting them with sensitive access to data and
systems, which could allow them access to privacy and credit card information
or to disburse government funds. The Acting Assistant Administrator for
OARM has been delegated the responsibility for maintaining an adequate
Agency-level program for personnel security. We believe the current risk is not
acceptable and management needs to react promptly and positively to the
minimum corrective actions outlined above.

The Acting Assistant Administrator also noted that the term “security
clearance” refers to investigations performed for individuals who need to access
national security information, and, as such, we have modified the report to use
the terms “background security check” or “personnel security screening.”




                                11
12
                               Chapter 3
         Contract Practices Over IFMS Software
           Modifications Need Improvement

         OCFO did not manage the contract for IFMS software modifications in a manner
         that ensured the proper authorization, acceptance, and approval of all new and
         revised software. In particular, OCFO management did not properly use its
         Change Management System (CMS) to manage change activities for IFMS and
         provide technical direction to contractor staff, as required in the contract. Both
         the Federal Acquisition Regulation (FAR) and EPA policy outline acceptable
         procedures. Although we had previously identified contract management
         problems, OCFO continued to use contract practices that gave the appearance of
         an improper personal service relationship with the contractor. This close working
         relationship with the contractor does not provide acceptable contract management
         controls to protect the integrity of IFMS system software or data. A personal
         services relationship was clearly demonstrated when OCFO Financial Systems
         Staff orally instructed the contractor to bypass documented channels and correct
         erroneous transactions totaling over $222 million by entering negative debits and
         positive credits “directly” into IFMS.

CMS Contractually Required
         CMS is a Lotus Notes application developed by EPA and required by the contract
         for managing IFMS change activities. OCFO’s Financial Systems Staff are
         required to use CMS to provide the contractor with technical direction for the
         tasks outlined in the Statement of Work. As such, an IFMS module expert should
         generate a work request – the primary means of prioritizing, identifying, and
         assigning work – within CMS to request contractor action. Subsequently, the
         contractor would use CMS to receive direction and provide deliverables for
         IFMS’s requirements and specifications. The contractor is only to accept work
         requests found in CMS or otherwise specifically approved by the Delivery Order
         Project Officer or Alternate Delivery Order Project Officer.

         FAR Part 37.104 and EPA Order 1901.1A address personal services. FAR
         indicates an employer-employee relationship under a service contract occurs
         when, as a result of the contract’s terms or the manner of its administration during
         performance, contractor personnel are subject to the relatively continuous
         supervision and control of a Government officer or employee. Agencies are not
         to award personal services contracts unless specifically authorized by statute.
         EPA Order 1901.1A, “Use of Contractor Services to Avoid Improper Contracting
         Relationships,” states that technical direction shall be issued in writing from the
         authorized designee or, if provided orally, the technical direction must be
         confirmed in writing within 5 calendar days.



                                          13
CMS Not Used to Manage Change Activities
         EPA did not use CMS to ensure the proper authorization, acceptance, and
         approval of all new and revised IFMS software, as required by the contract. For
         example, the OCFO Financial Systems Staff did not use CMS to provide technical
         direction to the contractor staff and to document acceptance and approval of
         deliverables. Acceptance should signify that management has reviewed the
         deliverable and determined it meets contractual requirements; approval should
         denote the formal, contractual approval by the Delivery Order Project Officer.
         That Project Officer should then use the CMS approval as a basis for concurring
         with the contractor’s requests for interim and final payments for the work. These
         controls ensure the contractor’s work meets contractual expectations and is of a
         reasonable quality to warrant additional resources and proceeding to the next step.

         We reviewed the CMS work requests for the seven software modifications
         implemented in August 2003, as the IFMS 5.1e10 Sub-Release, at a cost of
         $235,308. As of October 2003, for the 28 deliverables marked “required” in
         CMS, we found that:

         •    Fourteen (50%) had been marked received.
         •    Eight (29%) had been marked accepted by the module expert.
         •    Six (21%) had been marked approved by the Delivery Order Project Officer.

         A breakdown by percentage for each of the modifications follows in the table:

             Modification    Required
              Number        Deliverables        Delivered     Accepted         Approved
                  1               3              100%           33%              33%
                  2               4               75%           75%              50%
                  3             5                60%            20%              20%
                  4             4                50%            50%              50%
                  5             8                25%             0%               0%
                  6             1                100%           100%              0%
                  7             3                 0%             0%               0%
                Total           28               50%            29%              21%




         For 7 of the 28 deliverables, those initially marked as “required” in the CMS work
         request were later determined not to be necessary as a result of verbal discussions
         between the OCFO Financial Systems Staff and the contractor. Agreeing to
         decisions verbally without changing requirements in CMS treats contractors as
         employees and gives the appearance of personal services. In addition, because
         some required deliverables were not marked delivered, from a contractual
         standpoint it appeared that the Delivery Order Project Officer had concurred on
         payments for work not performed. Because other deliverables were never
         formally accepted or approved, it also appeared that the Delivery Order Project



                                           14
          Officer had concurred on payments for work that may not have met contractual
          requirements.

Position Descriptions Not Reflective of Employee Duties
          We believe the above condition occurred, in part, because the current position
          descriptions for Financial Systems Staff personnel are outdated and not reflective
          of assigned Delivery Order Project Officer contracting responsibilities. OCFO
          employees’ formal performance agreements and annual performance appraisals
          do not hold them accountable for satisfactory performance of contract
          management responsibilities. As such, OCFO management has not assessed how
          well these duties were carried out or whether they were performed in accordance
          with pertinent regulations, policies, and procedures. OCFO has acknowledged
          that existing Financial Systems Staff position descriptions are generic and lack
          details identifying employees’ actual responsibilities, and are taking steps to
          revise them.

OCFO Did Not Address the Previously Noted Inadequacies
          OCFO management did not address contract management problems previously
          noted in the OIG’s 1998 report, but rather continued to use contract practices that
          give the appearance of an improper personal service relationship with the
          contractor. The 1998 report had recommended that management use CMS to
          document technical direction to contractor staff and provide an audit trail of all
          contract activity and contract deliverables. However, due to staff turnover,
          Financial Systems Staff management could not provide an explanation as to why
          corrective actions had not been taken.

Management Relationship Inadequate to Protect Integrity

          OCFO Financial Systems Staff’s close working relationship with the contractor
          for software development does not provide acceptable contract management
          controls to protect the integrity of IFMS system software or data. For example,
          the staff orally instructed the contractor to correct erroneous transactions totaling
          over $222 million by entering negative debits and positive credits “directly” into
          IFMS. Encouraging a contractor with application programming authority to
          process accounting entries is an inadequate segregation of duties and substantially
          increases IFMS's vulnerability to fraud, manipulation, and abuse. Specifically,
          the circumvention of internal controls increases the possibility that other
          unauthorized system software changes or modifications of accounting information
          could be made directly to the production version of IFMS.




                                           15
Recommendations
         We recommend that the Chief Financial Officer:

         3.1     Continue Financial Systems Staff efforts to develop position descriptions
                 that more accurately reflect the actual contracting roles and
                 responsibilities for Financial Systems Staff employees, and explicitly
                 incorporate contract management responsibilities in applicable
                 performance agreements.

         3.2     Instruct Financial Systems Staff to:

               (a)    Discontinue the practice of providing verbal technical direction to
                      contractor staff (i.e., personal services activities).

               (b)    Document all meetings and other verbal directions to the contractor.

               (c)    Use CMS to document acceptance and approval of deliverables
                      received from the contractor.

Agency Comments and OIG Evaluation
         In responding to our draft report, the Chief Financial Officer concurred with both
         recommendations. In particular, management agreed to continue reviewing
         Financial Systems Staff employees’ position descriptions to ensure they include
         appropriate contracting roles and responsibilities. This action, in conjunction with
         incorporating contract management responsibilities in applicable performance
         agreements, should fully satisfy the intent of the recommendation.




                                          16
                                Chapter 4
       Change Control Process Does Not Ensure
      Proper Authorization, Testing, and Approval
          OCFO management has not instituted a formal, structured change control process
          for IFMS to ensure software program modifications are properly authorized,
          tested, and approved. EPA's security plan, which requires strong internal controls
          over the change control process to reduce the risk of unauthorized programs or
          modifications being implemented into the production environment, also serves as
          a basis for system security certification and accreditation. However, OCFO
          management did not implement formal change controls, as agreed to in a 1998
          OIG report. Inadequate change controls over IFMS software modifications places
          the Agency at risk that the availability, confidentiality, and integrity of EPA’s
          accounting and financial reporting functions could be compromised.

Testing of Modifications Involves Various Stages
          Testing of modifications or replacement software moves through a series of test
          stages. This includes:

          •   Unit Testing: Testing individual modules of program code.
          •   Integration Testing: Testing groups of modules that must work together.
          •   System Testing: Testing the entire system.

          The contractor performs the unit testing by developing a unit test plan,
          documenting the results, and delivering them both to OCFO. Unit testing
          determines whether individual program modules perform to user specifications.
          OCFO module experts subsequently conduct the integration and system tests, to
          ensure that related system components and the system as a whole perform to
          specifications. At the completion of the testing phase, the system owner, who has
          developmental and execution authority for the system, recommends
          implementation; the sponsor, who is authorized by the system owner to initiate
          system development, approves the implementation of the modified or replacement
          software.

          GAO, OMB, and NIST provide criteria and best practices for formal internal
          control procedures. In December 2003, EPA issued an Interim Agency System
          Life Cycle Management Policy (Interim EPA Order 2100.4), which, along with
          the rescinded directive (EPA Directive 2100, Chapter 17), assigns system
          managers the responsibility for managing their system’s life cycle process and
          products in compliance with Agency and Federal policy. The Interim Order
          requires EPA management to review and document its approval or disapproval in
          a decision document at each of the five system life cycle phases before the system
          may advance to the next phase. Further, the IFMS Security Plan, dated



                                          17
         September 2002, states that a formal change control process should be in place,
         and that all changes to the application software should be tested and approved
         prior to being placed into production. All changes are to be documented. Further
         details on criteria are in Appendix A.

Change Control Process Inadequate
         OCFO Not Following Agency Process for Authorizing Projects

         OCFO management did not adhere to the Agency’s process, as established by
         EPA’s new Interim EPA Order 2100.4 as well as the directive it replaced, for a
         decision paper to authorize and establish the project for the IFMS sub-release.
         The new interim order also requires a decision paper to authorize the start of a
         project, and expands upon this requirement to include a formal authorization at
         the end of each system life cycle phase. Audit work disclosed that EPA’s
         Financial Systems Staff formally notified OCFO management once it had
         determined which enhancements should be included in a planned system sub-
         release. However, we could not find any formal OCFO concurrence for the 2003
         sub-release information provided by the staff to the Comptroller. Based on
         available evidence, it appears that OCFO management did not formally authorize
         the proposed software modifications prior to development, testing, and
         implementation.

         Inadequate Control Process for Testing and Approval

         OCFO management has not instituted a formal change control process for testing
         changes made to IFMS system software. Further, the existing informal process is
         not adequate to ensure all new and revised software is properly tested and
         approved. While Financial Systems Staff had conducted systems testing for all
         seven software modifications implemented as part of the August 2003 IFMS sub-
         release, the staff had only done the integration testing for 43 percent of the
         modifications (three of seven). Both tests play important roles to ensure the
         modified software will operate as intended without negatively impacting the other
         system operations or degrading system performance. However, a module expert
         stated that the Financial Systems Staff considers system testing to be more
         important than integration testing; hence, they maintain detailed documentation
         for system testing but not integration testing results. This module expert also
         indicated the staff has plans to eliminate integration testing and only perform
         system testing in the future, but we believe that would be inappropriate.

         IFMS’s Security Plan recognizes the importance of both integrated and system
         testing, and requires that they be performed and documented as part of the change
         management process because the system is mission-critical. OCFO is required to
         develop and document a test plan to ensure the right combination of functions are
         being tested. The results of the test must also be documented, because they serve
         as a means for comparing actual test results and those anticipated in the test plan.



                                          18
These documents provide the basis for management to certify that controls are
adequate for operational purposes. The following table shows the lack of
integration and system test plans and corresponding documented results for each
of the 2003 sub-release software modifications.


                      Integration         Integration    System        System
    Modification       Test Plan         Test Results   Test Plan    Test Results
         1               Yes                 Yes          Yes            Yes
         2                No                 No           Yes            Yes
         3               Yes                 Yes          Yes            Yes
         4                No                 No           Yes            Yes
         5               Yes                 Yes          Yes            Yes
         6                No                 No            No            Yes
         7                No                 No           Yes            Yes

                          3                   3            6              7
      Percent            43%                43%           86%           100%



Furthermore, in those instances where the Financial Systems Staff conducted
integration and system tests, it did not maintain an evidentiary trail to support
satisfactory supervisory reviews and management approvals of the test plans and
corresponding test results. Financial Systems Staff personnel indicated that
testing results are discussed verbally with their team leader and acceptance is
verbally communicated by the team leader to the module expert; no formal,
written approval is provided.

Based on our review of testing documentation, we believe the Chief for Financial
Systems did not have an adequate basis for recommending implementation of the
2003 August IFMS sub-release. Relying on the informal, verbal acceptance and
approval processes for system and integration testing, the Financial Systems Staff
sent a formal memorandum to the Director for Financial Management to request
concurrence on implementation of the sub-release. The Director formally
responded with an approval to proceed with installation. In our opinion, the Chief
for Financial Systems did not have adequate evidence to support the decision.


IFMS Certification and Accreditation Not Based on a
Structured and Disciplined Control Process

IFMS was authorized to operate in 2002, based on a security risk assessment and
security plan process that did not strongly emphasize the importance of a
structured, disciplined approach to managing, controlling, and documenting
system changes. Subsequent to the 2002 authorization, NIST published new
guidelines for Security Certification and Accreditation of Federal information



                                    19
          systems, formally recognizing configuration and management control as an
          essential element for maintaining a system’s security accreditation (i.e., formal
          authorization to operate). Although this newer requirement did not exist when
          IFMS was formally authorized to operate, it is a current and compelling reason for
          management to establish and enforce a structured process for documenting
          information system changes and assessing the impact of the those changes on the
          security of the system.

OCFO Did Not Address Previously Identified Control Weaknesses
          OCFO management did not implement formal change controls, as recommended
          in the prior 1998 OIG report. In response to previously noted weaknesses, OCFO
          had agreed to establish internal software change control policies and procedures
          that would provide management oversight and approval of core system software
          development and enhancement projects. Due to staff turnover, Financial Systems
          Staff management could not provide an explanation as to why actions had not
          been taken to correct continuing contract management problems.

          According to Interim EPA Order 2100.4, it is EPA’s goal that all major
          application systems will be developed using a methodology equivalent to at least
          the Software Engineering Institute’s Capability Maturity Model Level 3. For
          IFMS to meet that goal, the change control process for IFMS system software
          would need to be reengineered so that it is documented, standardized, and
          integrated into a standard software management control process for OCFO.

Uncontrolled System Software Changes Could Compromise
Availability, Confidentiality, and Integrity of IFMS Data
          Uncontrolled change controls over IFMS software modifications places the
          Agency at risk that the availability, confidentiality, and integrity of EPA’s
          accounting and financial reporting functions could be compromised. System
          software changes should be carefully controlled and approved since relatively
          minor program changes, if done incorrectly, can compromise or have a significant
          negative impact on overall data reliability. Moreover, a structured and disciplined
          process for managing, controlling, and documenting changes is an essential
          element for maintaining system accreditation. The absence of such a vital control
          process could negatively impact the Authorizing Official’s decision to continue
          system operations, because this lapse of controls could pose an unacceptable level
          of risk to Agency operations, assets, or individuals.

          If management does not develop and implement structured controls to ensure
          software modifications are properly authorized, tested, and approved, program
          changes could result in erroneous processing, weakened access controls, or
          weakened system edits. Furthermore, without an orderly, disciplined process for
          testing and approving new and modified programs prior to their implementation,
          management cannot ensure that (1) IFMS programs will operate as intended,


                                          20
         (2) no unauthorized software changes have been incorporated into pending
         releases, or (3) an adequate basis exists for providing required system security
         certification and accreditation.

Recommendations
         We recommend that the Chief Financial Officer:

         4.1    Identify an OMB-reportable Plan of Action and Milestones to establish
                and implement a new, structured change control process over IFMS using
                a methodology that meets the specifications published in EPA’s interim
                system life cycle management policy and procedures.

         4.2    Within 90 days, reauthorize and accredit IFMS in accordance with NIST
                800-37, assessing the security risks in place at that point of time. If the
                risk to Agency operations, assets, or individuals cannot be addressed
                within this timeframe, then consider issuing an Interim Authorization to
                Operate, in accordance with NIST guidance, until such time as the new
                policy and procedures are fully implemented.

Agency Comments and OIG Evaluation
         In responding to our draft report, the Chief Financial Officer concurred with both
         recommendations. The CFO noted that a new CMS system is currently under
         development and that management is studying NIST guidance to determine what
         action is required for re-authorizing and re-accrediting IFMS. We are concerned
         with the focus of the CFO’s response, because replacing CMS alone will not fully
         address the intent of our recommendations. CMS is only used to manage the
         “contract” for IFMS’s change management activities. This is only a portion of the
         IFMS change control process, which also includes management’s initial
         authorization of projects, integrated and systems testing, the system owner’s
         formal recommendation for implementation, and the final approval to implement
         the modified or replacement software into the production environment. As such,
         to fully address the intent of our recommendations, the CFO will also need to
         develop, document, and implement a structured change control process for IFMS
         that complies with EPA’s interim system life cycle management policy and
         procedures, and incorporates the new CMS.




                                          21
22
                                                                                     Appendix A

                                        Applicable Criteria
Numerous Federal regulations, industry best practices, and Agency policies and procedures
establish the baseline for evaluating OCFO’s practices in securing and processing changes to
IFMS. Details follow.

•   Appendix III to OMB Circular A-130, Security of Federal Automated Information
    Resources, dated November 2000. This defines adequate security as “security
    commensurate with the risk and magnitude of the harm resulting from the loss, misuse, or
    unauthorized access to or modification of information.” This includes assuring that systems
    and applications used by the agency operate effectively and provide appropriate
    confidentiality, integrity, and availability. Appendix III also indicates that agencies should
    assure that each system appropriately uses effective security products and techniques,
    consistent with standards and guidance from NIST. Also, Appendix III discusses the need
    for a security plan and a risk assessment for Federal agencies’ general support systems.

•   OMB Circular A-123, Management Accountability and Control, dated June 1995. The
    Circular establishes specific management control standards requiring separation of duties and
    supervision, and access to and accountability of resources.

•   The Chief Financial Officers Act of 1990. This Act requires financial management systems
    to comply with internal control standards.

•   Federal Financial Management Improvement Act, dated September 1996. This Act
    identifies internal controls as an integral part of improving financial management systems.

•   Federal Information System Controls Audit Manual (FISCAM), dated January 1999.
    This GAO manual states that a formal change control process includes instituting policies,
    written procedures, and techniques that help ensure all programs and program modifications
    are properly authorized, tested, and approved. Also, this manual represents government-wide
    information technology best practices, such as for logical access controls and segregation of
    duties issues for software change controls.

•   NIST. NIST represents Federal guidance covering security controls over general support
    systems and applications. Several NIST Special Publications (SPs) apply:

           NIST SP 800-37, Guide for the Security Certification and Accreditation of
           Federal Information Systems, dated May 2004. This stresses the importance of
           adequate configuration management and control, recognizing it as an essential
           element for maintaining a system’s security accreditation. Security certification and
           accreditation is part of a dynamic, ongoing risk management process, which
           culminates in a formal authorization to operate an information system based on the
           state of security at a specific point in time. NIST emphasizes that the inevitable
           changes to an information system (including software) and the potential impact those



                                                23
           changes may have on agency operations, agency assets, or individuals, requires an
           orderly and disciplined approach to managing, controlling, and documenting changes
           so as to ensure an ongoing assessment of their impact on system security.

           NIST SP 800-14, Generally Accepted Principles and Practices for Securing
           Information Technology Systems, dated September 1996. This gives
           recommendations on how proper segregation of duties should be established, and on
           how appropriate logical access controls should be implemented.

           NIST SP 800-64, Security Considerations in the Information Development Life
           Cycle, dated October 2003. This discusses issues and gives recommendations for
           personnel security screenings.

           NIST SP 800-18, Guide for Developing Security Plans for Information
           Technology Systems, dated December 1998. This provides detailed guidance on
           creating security plans for general support systems.

•   GAO’s Standards for Internal Control in the Federal Government, dated November
    1999. The Standards require management to document, test, and approve modifications to
    software before placing them into production.

•   EPA Order 2100.4, Interim Agency System Life Cycle Management Policy, dated
    December 2003. EPA issued this Interim Order and rescinded Chapter 17 of EPA Directive
    2100, which nevertheless was in effect during the 2003 IFMS sub-release process. The new
    policy applies to all information systems developed, enhanced, or maintained by or for EPA,
    including applications and general support systems. OCFO’s change control procedures and
    practices are based on the Agency’s system development life cycle concepts. EPA's System
    Life Cycle Management Policy consists of five phases. One of the phases is the Operation
    and Maintenance phase, which requires OCFO to operate and maintain IFMS software using
    a configuration management process. Periodic risk assessments, testing, certification, and
    reauthorization must be conducted during this phase. The new policy states that systems
    must be developed in a rigorous manner that lessens and manages risk.

    The Interim Order further establishes important roles and responsibilities for controlling
    changes to system software during the operation and maintenance phase. This policy, as well
    as the rescinded Chapter 17, assigns system managers the responsibility for managing their
    system’s life cycle process and products in compliance with Agency and Federal policy.
    While Chapter 17 assigned responsibility for formally approving system enhancements to the
    system sponsor, the Interim Order assigns this responsibility to the system owner. In
    particular, it notes that the System Owner is responsible for ensuring (1) adherence to the
    System Life Cycle Management Policy, and (2) that all management and security controls are
    in place and operational. In addition, it defines the IFMS System Owner’s responsibilities,
    which include recommending the implementation of changes to system software. The
    Interim Order also states the IFMS System Manager controls daily operations. Further, the
    System Sponsor must concur with advancement of the software modifications, replacements,
    or enhancements to each life cycle phase. In addition, the Senior Information Resources


                                               24
    Management Official is the Authorizing Official that approves the security plan authorizing
    operations.

    Further, the Interim Order requires EPA management to review and document its approval or
    disapproval in a decision document at each of the five system life cycle phases before the
    system may advance to the next phase. The accompanying Interim Agency System Life
    Cycle Procedures further define the Implementation Phase, which requires testing and a
    written authorization to process prior to beginning operations. Testing the system ensures
    that it works as specified in the requirements and design specifications, and that it meets
    applicable standards of performance, reliability, integrity, and security.

•   EPA’s Information Security Manual (ISM), dated December 1999. The Manual sets
    forth requirements and provides guidance for securing Agency information resources in
    accordance with EPA and Federal security policies and mandates. Specifically, the Manual
    lists requirements for personnel security screenings, logical access controls, and establishing
    proper segregation of duties.

•   OCFO Policy Announcement 98-08, Amendment 1, Procedures for On-line Access to
    EPA’s Integrated Financial Management System (IFMS), dated March 2002. This
    identifies requirements for personnel security screenings. Specifically, it requires that
    background screenings include, at least, a successful National Agency Check with Inquiries
    and Credit before giving contractor personnel access to IFMS.

•   IFMS Security Plan, dated September 2002. The IFMS Security Plan states that a formal
    change control process should be in place and that all changes to the application software
    should be tested and approved prior to being placed into production. The Plan also states that
    the process for testing revisions to the software should include EPA performing testing first
    in an integrated test environment and then in a more comprehensive system test environment.
    Further, the Plan states that all changes to the application software should be documented,
    including integrated test plans, system test plans, and test results. Finally, The IFMS
    Security Plan identifies local and Agency provisions for the IFMS Security Administrator to
    use for maintaining proper segregation of duties, and establishing appropriate logical access
    controls.

•   EPA’s Application RACF Security Administrator’s Guide, dated February 1996. The
    Guide provides procedural guidance required for EPA program offices to perform RACF
    administration. The Guide outlines requirements for RACF User-ID administration. For
    instance, the Guide prohibits the sharing of User-IDs and individuals from owning more than
    one User-ID, unless the National Technology Services Division receives a justification from
    the system owner and approves the exception.

•   The Implementation Report for IFMS 5.1, Release 1 Using Endevor V3.6, dated
    February 1995. The Report identifies EPA’s responsibility and procedures for maintaining
    RACF groups associated with Endevor.




                                                 25
26
                                                                                                                  Appendix B

                       Office of the Chief Financial Officer
                            Response to Draft Report
MEMORANDUM

DATE:               July 23, 2004

SUBJECT:            OIG Audit Report: EPA Needs to Improve Change Controls for
                    Integrated Financial Management System
                    2003-000909

FROM:               Charles E. Johnson, Chief Financial Officer /s/
                    Office of the Chief Financial Officer

TO:                 Patricia H. Hill, Director
                    Business Systems Audits

          Thank you for the opportunity to respond to the findings and recommendations made in the draft report entitled, “EPA
Needs to Improve Change Controls for Integrated Financial Management System.” Attached is our response to the specific audit
findings and recommendations made in the report. Comments from the Office of Administration and Resources Management
were provided under separate cover.

           We agree with the OIG emphasis on the importance of change controls. However, we disagree with the OIG assertion
that there is a general breakdown of security controls that could undermine the integrity of our financial system and data. Our
office exerts significant effort to ensure that security controls provide reasonable assurance, limit access to authorized
individuals, and properly integrate software modifications. To this end, we continually initiate actions that will enhance our
existing controls. For example, a recently developed automated annual security recertification system, grounded in the concepts
of least privilege and proper separation of duties, is being used to update access rights, privileges, roles for Integrated Financial
Management System and the Financial Data Warehouse users. Actions are also underway to replace the antiquated Change
Management System. Additionally, key change control roles and responsibilities are clearly defined and employed by our trained
systems experts.

           We acknowledge that there is always room for improvement in any process and welcome your continued evaluation of
our efforts.

          If you have any questions concerning this response, please contact Lorna McAllister, Acting Director, Office of
Financial Management at 202-564-4905 or Juanita Galbreath, Staff Director, Financial Systems Staff at 202-564-1560.

Attachment

cc:       Mike Ryan




                                                                 27
                   RESPONSE to DRAFT AUDIT of EPA’s CHANGE CONTROL for
                      THE INTEGRATED FINANCIAL MANAGEMENT SYSTEM

                                 FINDINGS AND RECOMMENDATIONS

2 – Security Controls Inadequate to Protect Integrity of IFMS Software Libraries

We recommend that the Chief Financial Officer (OCFO):

2.1    Perform a risk assessment of the Endeavor system and, subsequently, develop a security
       plan for Endeavor in accordance with NIST guidance, such as NIST Special Publication 800-
       18.

       FSS Response: Concur

       Endeavor is not a system. Rather, it is a software tool used to automate, control and monitor
       application development and maintenance. It maintains complete source code audit trials and
       provides source code library management functions. Access to Endeavor menus and options is
       controlled by Resource Access Control Facility (RACF).

       Endeavor does not meet the NIST 800-18 definition of a “major application” or “general support
       system.” that requires a security plan. Endeavor:
            is not mission critical;
            is not reviewed under the Agency’s annual IT Investment review process as a Major
               Application “Full CPIC”;
            does not have high confidentiality requirements, i.e., contain confidential business
               information, trade secrets, privacy information or any other highly confidential information;
            does not have high availability requirements;
            does have high integrity requirements.

       However, to further ensure financial systems integrity, we will include endeavor in the IFMS
       security plan and risk assessment.

2.2    Update the Endeavor Statement of Work to comply with current policies.

       FSS Response: Concur

       We have reviewed the Statement of Work (SOW) for the IAG and found that it does have a
       requirement for a National Agency Check (NAC). We will request that GSA update the SOW to
       require at a minimum a National Agency Check with Inquiries and Credit (NACIC).

       Note: Our contractor currently has a security clearance through another Federal agency for which
       she performs additional work.




                                                    28
2.3   Remove access for all contractor personnel without a pending personnel security screening
      request or a final acceptable clearance.

      FSS Response: Concur

      We have reviewed the personnel security information of each contractor and in accordance with
      EPA Information Security Manual (ISM), Directive 2195, A-1, section 10, taken the appropriate
      action.

2.4   Establish a systematic process that will:

      (1) Clearly identify key responsibilities of roles related to IFMS security and Endevor
      contract administration; (2) ensure employees are adequately trained to perform assigned
      duties; and (3) hold employees accountable for successful performance of their roles.

      FSS Response: Concur

      Current OCFO, FSS guidance, policies, assignment matrix’s and employee performance plans
      clearly identify key roles and responsibilities and enforce accountability. Additionally, FSS
      employees receive continual training to better prepare them to successfully fulfill their
      responsibilities.
           The IFMS Security Features Users Guide (SFUG) clearly identifies roles and
               responsibilities and provides the information that a user needs to enter IFMS and start
               working within its security constraints, and it explains the user's role in maintaining the
               security of the system.
           The IFMS Procedures for Online Access provides procedures for controlling on-line
               access.
           The entire Financial Systems Staff received 8 hours of IFMS Security Training in October
               2003, and 16 hours IFMS refresher training in December of 2003. In addition, internal
               ongoing training is provided by each staff subject matter expert to other staff members.
      Additional applicable documentation available to FSS and IFMS end-users is:
           PA 98-08, FSS Policies and Procedures for On-line Access to the EPA's Integrated
               Financial Management System (IFMS), September 1998 available at
               http://intranet.epa.gov/ocfo/policies/policy/pa98-08a.pdf
           IFMS Computer Based Instruction (CBT) available at
               http://intranet.epa.gov/ocfo/systems/fsb/ifms.htm#cbt

2.5   Finalize the existing Interim Procedures for Conducting Background Investigations in a
      formal Agency-Level policy. Addressed by OARM

2.6   Provide interim guidance on duties and responsibilities of coordinators for background
      investigations. Addressed by OARM

2.7   Provide training for Agency Delivery Order Project Officers and security clearance
      coordinators for requesting background investigations of non-Federal personnel.
      Addressed by OARM



                                                   29
3 – Contracting Practices Over IFMS Software Modifications Need Improvement

3.1    Continue Financial Systems Staff efforts to develop Position Descriptions that more
       accurately reflects the actual contracting roles and responsibilities for Financial System
       Staff employees, and explicitly incorporate contract management responsibilities in
       applicable performance agreements.

       FSS Response: Concur

       The FSS Director will continue to review staff position descriptions to include the appropriate
       contracting roles and responsibilities.

3.2    Instruct Financial Systems Staff to:
       (a) Discontinue the practice of providing verbal technical direction to contractor staff (i.e.,
       personal services activities). (b) Document all meetings and other verbal directions to the
       contractor. (c) Use CMS to document acceptance and approval of deliverables received
       from the contractor.

       FSS Response: Concur

       The Director of FSS has instructed the responsible parties to (1) document all meetings with and
       directions provided to the contractor and (2) use CMS to document acceptance and approval of all
       deliverables from the contractor. The contractor has been notified in writing to not accept any
       verbal instructions from Financial Systems Staff.

4 – Contracting Practices Over IFMS Software Modifications Need Improvement

4.1    Identify an OMB-reportable Plan of Action and Milestones (POAM) to establish and
       implement a new, structured change control process over IFMS using a methodology that
       meets the specifications published in EPA’s interim system life cycle management policy
       and procedures.

       FSS Response: Concur

       A new Change Management System is currently under development. The POAM will include
       Policies and Standard Operating Procedures.

4.2    Reauthorize and accredit IFMS in accordance with NIST 800-37 if the new change control
       process cannot be implemented within the next 90 days.

       FSS Response: Concur

       Due to fiscal year-end close-out and IFMS sub-release requirements, we do not expect to
       implement the new CMS in the next 90 days. We are currently studying the new
       NIST guidance to determine what action is required.




                                                    30
                                                                                     Appendix C

 Office of Administration and Resources Management
              Response to Draft Report
                                              July 21, 2004
MEMORANDUM

SUBJECT:       Response to Draft Audit Report: EPA Needs to Improve Change Controls for
               Integrated Financial Management System

FROM:          David J. O’Connor, Acting Assistant Administrator /S/

TO:            Patricia H. Hill, Director
               Business System Audits

        I appreciate the opportunity to review the subject audit report and to provide this response
to your recommendations directed to OARM. Our Security Management Division is very
supportive of Agency efforts to improve security of its financial management systems and has
endeavored to assist OCFO in their background investigations of contractor employees.

        I believe the use of the term “security clearance” in connection with your audit is
inappropriate because clearances are required only when access to national security information
is needed which is not applicable for the tasks identified in your audit cases. Furthermore, even
if such clearances were needed, the Department of Defense, not EPA, has the authority to grant
them.

        The substantive issue in your draft report that is relevant to OARM is “suitability”
background investigations which are currently mandated only for federal employees to determine
if they are “fit for service.” No federal or EPA-wide policy currently requires suitability
screening of contractors. A few offices, including OCFO, have elected to establish such a policy
and we provide support for the processing and adjudication of these investigations. However,
because of the limited nature of these, we do not believe that our interim procedures need to be
formalized or expanded Agency-wide at this time.

        Attached is a detailed response to your audit recommendations from Rich Lemley,
Director of the Office of Administrative Services. Please direct any further inquiries regarding
this response to Rich at 564-8400.

cc:    Rich Lemley
       Wes Carpenter
       Sandy Womack-Butler

Attachment




                                                31
32
                                            July 14, 2004



MEMORANDUM

SUBJECT:      Response to Draft Audit Recommendations Regarding Interim Procedures for
              Conducting Background Investigations on Non-Federal EPA Workers

FROM:         Rich Lemley, Director /S/
              Office of Administrative Services

TO:           Patricia H. Hill, Director
              Business System Audits

        I am pleased to provide this response to the recommendations contained in the subject
report pertaining to our Security Management Division. I hope you will find this information
useful and request that you direct any further questions to me at 564-8400.

         As you know, background suitability screening of federal contractors is not required by
any federal or Agency-wide policy. However, because a few EPA program offices have elected
to screen some contractors, in early 2004, our Security Management Division issued an internal
memo regarding “Interim Procedures for Conducting Background Investigations on Non-Federal
EPA Employees.” This document states that it applies only to those programs and regions with
internal policies in place requiring background investigations and it clarifies the process for
initiating them through the Office of Personnel Management (OPM). Because the Agency has
not established a mandatory EPA-wide formal policy regarding these investigations, we do not
believe that the interim procedures should be finalized into such a document as you recommend
in 2.5 below.

2.5    Finalize the existing Interim Procedures for Conducting Background Investigations in a
       formal Agency-level policy.

Response:     No federal or Agency-wide policy exists for suitability screening of contractors so
              the interim procedures should remain limited to those EPA programs and regions
              that voluntarily have elected to conduct such investigations.

2.6     Provide interim guidance on duties and responsibilities of coordinators for background
investigations.

Response:     The Security Management Division has already provided guidance on procedures
              to follow for initiating suitability background investigations of contractors
              through OPM. The duties and responsibilities of program and regional
              coordinators should be established by their respective offices, if needed.




                                               33
2.7   Provide training for Agency Delivery Order Project Officers and security clearance
      coordinators for requesting background investigations of non-Federal personnel.

Response:    Currently, very few EPA personnel are involved in requesting background
             investigations of non-federal personnel and the Security Management Division
             has worked with them on an individual basis to explain the procedures. We do
             not believe that formal training is required at this time.




                                             34
APR 26 2004

MEMORANDUM

SUBJECT:      Interim Procedures for Conducting Background
              Investigations on Non-Federal EPA Workers

FROM:         Wesley J. Carpenter, Chief /s/
              Security Management Division

TO:           All Program and Regional Security Representatives


          These procedures are directed at those EPA Programs and
Regions with internal policies in place requiring background
investigations for non-federal workers performed through the Office of
Personnel Management (OPM). For those Programs and Regions without
existing internal policies, these procedures are not mandatory.

          The process for non-federal background investigations at EPA
is set forth in a six step process. Of those six steps, only step one
and step six require involvement of the Program or Regional Office.
All steps require participation and collaboration with OARM’s Security
Management Division (SMD), Personnel Security Branch. The six step
process outlined below will improve communications and the overall
awareness of personnel security within the Agency.

NOTE: A new standard is currently being developed to establish minimum
personnel security suitability requirements for non federal employees
supporting EPA. Once finalized, it will supplement the SMD’s existing
procedures. In the interim, based on previous SMD guidance, Programs
and Regions should use the formal process set out below.

Step 1: The Programs and Regions must complete and submit the required
paperwork to the Personnel Security Branch.

•    The Program or Regional Contracting Officer Representative (COR)
must complete and submit a cover memo and contractor security
documents to the Personnel Security Branch to initiate the process

        <     Cover memorandum, including:

              ÷     Name and telephone number of COR;

              ÷     Name and telephone number of points of contact for
                    obtaining additional information and notification of
                    adjudication determination, if different from the COR;

              ÷     Contract number;




                                       35
          ÷     Name of contractor(s) for whom security paperwork is
                provided;

          ÷     Identification of type of background investigation
                requested; and

          ÷     Funding information.

     <    Non-federal security documents, including:

          ÷    SF-85P, Questionnaire for Public Trust Positions; or

          ÷     SF-85, Questionnaire for Non-Sensitive Positions;

          ÷     Two FD-258, Federal Bureau of Investigation
                fingerprint charts;

          ÷     SF-86A, Continuation Sheet for Questionnaires, when
                applicable; and

          ÷     Credit Release Authorization Form (for investigations
                requiring a credit check: MBI, LBI or NACI with
                Credit).

     NOTE: The SF-85 PS Questionnaire is not required and should not
          be used. In addition, Part I of the SF-85P or SF 85 form
          will be completed by the Personnel Security Branch; the
          Programs and Regions should not complete it.

•    The cover memorandum and contractor security documents should be
hand-delivered or mailed to the Personnel Security Branch at:

     <    US EPA
          Attention: Personnel Security Branch
          1200 Pennsylvania Ave., NW
          Mail Code 3206M, East Building - Room B414
          Washington, DC 20460

Step 2: The Personnel Security Branch will enter the information into
its database, file copies of the information, and review the contents
of the case papers.

Step 3: The Personnel Security Branch will initiate the investigation
through OPM.

Step 4: OPM will conduct the investigation and forward the completed
investigation to the Personnel Security Branch for adjudication. On
average, this process takes 2 to 8 months to complete.




                                  36
                                 -2-



Step 5: The Personnel Security Branch will favorably or unfavorably
adjudicate the case and provide the results to the Program or Regional
COR.

Step 6: The Program or Regional COR will review the adjudicative
results and take action based on the findings and recommendations. OPM
is notified of final adjudicative action.

   Questions regarding these procedures should be directed to
Kelly Glazier, Chief, Personnel Security Branch at 202-564-0351.




                                  37
38
                                                                             Appendix D

                                   Distribution
Chief Financial Officer (2710A)
Acting Assistant Administrator for Administration and Resources Management (3101A)
Acting Director, Office of Financial Management (2733R)
Director, Office of Administrative Services (3201A)
Director, Technical Information Security Staff (2831T)
Audit Coordinator, OCFO (2710A)
Audit Coordinator, OARM (3102A)
Audit Coordinator, OEI (2812T)
Agency Follow-up Official (2710A)
Agency Follow-up Coordinator (2724A)
Associate Administrator for Congressional and Intergovernmental Relations (1301A)
Associate Administrator for Public Affairs (1701A)
Inspector General (2410T)




                                            39
